                   U.S. Department of the Interior
                       Office of Inspector General




                                AUDIT REPORT




COLLECTION AND USE OF FRANCHISE FEES
            NATIONAL PARK SERVICE




No. 2003-I-0034                      March 2003
retain concessioner-paid franchise fees that the concessioners had formerly deposited into
the U.S. Treasury’s General Fund. Specifically, the Act provided that, beginning in fiscal
year 1999, all franchise fees payable under concessions contracts were to be deposited
into special accounts. Of the fees deposited, 20 percent was to be available for NPS-wide
activities and 80 percent was to be available for expenses of the park at which the fees
were collected. The Act said that the 80 percent, or park-specific portion, could be used
to finance visitor services and to pay for “high-priority and urgently necessary resource
management programs and operations.” Additionally, the Act required the Secretary of
the Interior to issue implementing regulations for all matters covered in the Act. The
NPS reported that for fiscal year 1999 through April 2002 it had collected $53 million in
franchise fees, and the parks reported $7.4 million in expenditures for park-specific
projects in that same period.

        NPS issued franchise fee guidance on September 23, 1999 that stated NPS-wide
funds would be used for operational costs of the Concessions Management Advisory
Board (a board established by the Act to advise the Secretary and NPS on matters relating
to concessions management in NPS), contracts for concession program services, and
assistance to parks to meet concession-related needs. The guidelines for the park-specific
fees designated concession-related needs as the highest priority use of the funds, followed
by environmental and energy efficiency projects, enhancement to other visitor services,
and then high priority resource management programs. NPS’ current process requires the
individual NPS regional offices and the NPS Washington Area Service Office to approve
projects using the park-specific funds whose estimated cost exceeds $100,000.

        Individual project information, including the Department of the Interior’s (DOI)
project priority ranking, is then to be entered into the Property Management Information
System (PMIS). The DOI requires all non-recurring maintenance or capital improvement
projects to be assessed to ensure that the most critical needs, such as health and safety,
are identified and assigned a priority rank for funding purposes. Rank refers to the
project priority ranking categories identified in the annual DOI Budget Guidance.

        We issued a report in January 2001 entitled, “Survey Report on Collection and
Use of Franchise Fees, National Park Service” (No. 01-I-116) that recommended NPS
revise its guidelines on fund usage to eliminate the stipulation that concession-related
needs were to be the top priority use for park-specific funds and that the concessioner
improvement accounts be eliminated when new contracts are issued. NPS concurred
with the two recommendations.

                               RESULTS OF AUDIT
        We found that the NPS had not effectively implemented our prior audit
recommendation on revising its guidelines on the use of franchise fees and that
improvements were needed over the collection and deposit of franchise fees. We were
not able to determine whether the highest priority projects were funded because of the
lack of information on project priorities.




                                             2
Implementation of Prior Recommendation

        NPS issued revised guidelines dated September 19, 2001 on the use of franchise
fee monies. We reviewed the revised guidelines and found that the revised guidelines did
not implement our prior recommendation because these guidelines provided only
temporary policy. Specifically, we recommended that NPS revise its guidelines on fund
usage to eliminate the stipulation that concession-related needs were to be the top priority
use for park-specific funds. The revised guidelines only stated how franchise fee
collections would be used to take care of current and near-term needs related to
concession contract processing. In addition, the revised guidelines state that the
“previous guidelines issued in September 1999; on use of 80 percent funds should remain
in effect otherwise.” On August 14, 2002 we notified the Department and NPS that the
prior recommendation had not been implemented. On August 26, 2002 the Department
informed us that it had reinstated the recommendation as unimplemented in the follow-up
system.

Collection and Deposit of Fees

        Two of the three parks we visited, Mesa Verde and Glen Canyon, were not
reconciling Electronic Fund Transfer (EFT) deposits of franchise fees to the Annual
Financial Report1 (AFR) to ensure payment amounts were correct. At Mesa Verde, we
found the park was not getting the necessary EFT dates and deposit amounts made by the
franchise fee concessionaire. Had the park been provided with the information, the park
would have been able to monitor payments, assess interest on any late payments, and
reconcile the amounts paid to the AFR and ensure payment amounts were correct. At
Glen Canyon we found that the park was getting the necessary deposit dates and amounts
for EFT deposits but was not performing the reconciliation to the AFR to ensure the
payment amounts were correct. Both Mesa Verde and Glen Canyon indicated they would
start performing the reconciliation to the AFR.

Use of Franchise Fee Monies

        We found that parks were not assigning DOI project priority ranking scores in
PMIS to all projects to be funded with the park-specific franchise fee monies. NPS
issued a memorandum on December 21, 2000 which stated that PMIS (the project
management system) must be used to document, rank, review, and report
accomplishments for all non-recurring project needs of NPS. However, at the three parks
we visited, only 26 (or 40 percent) of the franchise fee funded projects we reviewed had
been assigned a DOI ranking score. The parks did not enter the DOI rank in PMIS
because they had not computed scores for each of the projects and believed that the
intuitive process they used for prioritizing franchise fee projects was sufficient. As a
result, we could not determine whether the projects that were funded with franchise fees
met the parks’ most urgent needs.

        The regional offices review and approve projects entered into PMIS including
those that are to be funded with franchise fees. The purpose of the reviews by the regions
is to ensure that projects meet the intent of the Act and NPS guidance. While the current
review is a good beginning, we believe that the regional offices could strengthen their
oversight of the use of the franchise fees by (1) reviewing the ranking scores to ensure
that projects submitted address the highest priority park needs and (2) performing

1
 The Annual Financial Report reflects the financial operations of the concessionaire through specified NPS
reporting forms, which are based on the concessionaires’ gross receipts.


                                                    3
periodic reviews of expenses charged against the approved franchise fee projects to
ensure that the money was spent as intended (only on approved projects). By performing
these additional steps, we believe the regional offices will be able to provide assurance
that the franchise fee collections are being used to address the highest needs of the parks.

Suggested Actions

       We suggest that the Director, NPS:

       1. Require that all DOI priority ranking information is determined for all
proposed franchise fee projects and that the information is entered in the PMIS.

        2. Strengthen the regional review process over franchise fee projects to ensure
that projects approved for funding are of a sufficiently high priority and that franchise
fees are expended only on approved projects.

SCOPE, METHODOLOGY, AND STANDARDS
        We performed our survey during July through September 2002 at NPS’
Intermountain Regional Office in Lakewood, Colorado; Glen Canyon National Park in
Arizona; Mesa Verde National Park in Colorado; and Fort Sumter National Monument in
South Carolina. At the locations visited we reviewed PMIS information, expenditure
data, concessionaire reports and financial statements, and we interviewed NPS officials
involved in the concessions management program. We also contacted the Concessions
Program Center in Lakewood, Colorado, and the Southeast Regional Office in Atlanta,
Georgia, to determine how those offices reviewed and managed the use of franchise fees.

         We conducted the audit in accordance with the “Government Auditing Standards”
issued by the Comptroller General of the United States. Accordingly, we included such
tests of records and other auditing procedures that were considered necessary under the
circumstances.

        In addition, we reviewed the Departmental Report on Accountability for fiscal
year 2001, which included information required by the Federal Managers’ Financial
Integrity Act, and NPS’ annual assurance statement on management controls for fiscal
year 2001 and determined that there were no reported material weaknesses regarding the
collection and use of franchise fees.


       Since this report does not include any recommendations, a response is not
required. However, we would appreciate being kept informed of any action you take to
address the suggestions presented in the report.

      If you or your staff has any questions regarding this report, please call me at (303)
236-9243.




                                             4
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone — Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
